Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   ALLERGEN IMMUNOTHERAPY

  FOR MEDICARE BENEFICIARIES





                    Daniel R. Levinson

                    Inspector General 


                      February 2006

                     OEI-09-00-00531

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to HHS, the
Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within
HHS. The OCIG also represents OIG in the global settlement of cases arising under the
Civil False Claims Act, develops and monitors corporate integrity agreements, develops
compliance program guidances, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                      S U M M A R Y                  



                  OBJECTIVE
                  To determine (1) if allergen immunotherapy and related services met
                  Medicare coverage and documentation requirements, and (2) if allergen
                  immunotherapy provided to Medicare beneficiaries was of a quality that
                  met professionally recognized standards of health care.


                  BACKGROUND
                  In 2001, Medicare allowed approximately $130 million for allergen
                  immunotherapy and related services. By 2003, this amount had grown
                  to $171 million. Allergen immunotherapy—commonly known as allergy
                  shots—is intended to reduce the patient’s reactions to particular
                  allergens. Title XVIII of the Social Security Act (the Act) limits
                  Medicare coverage to services that are medically necessary (section
                  1862(a)(1)(A)) and supported by documentation (section 1833(e)). Title
                  XI of the Act requires that services provided to Medicare beneficiaries
                  be of a quality that meets professionally recognized standards of health
                  care (section 1156(a)(2)). Federal regulations (42 CFR § 1001.2) define
                  “professionally recognized standards of health care” as “. . . Statewide or
                  national standards of care . . . that professional peers of the individual
                  or entity . . . recognize as applying to those peers practicing or providing
                  care within a State.”

                  The Joint Task Force on Practice Parameters, which represents
                  95 percent of the allergist/immunologists in the United States,
                  publishes standards of care for the diagnosis and treatment of allergies.
                  These standards specify medical necessity criteria, contraindications,
                  and the proper duration of allergen immunotherapy. They also outline
                  procedures for administering allergy tests, preparing and delivering
                  injections, and providing follow-up care. Because, to our knowledge,
                  there exist no competing local or State standards for allergen
                  immunotherapy, we considered the Joint Task Force standards to be
                  “professionally recognized standards of health care” under section
                  1156(a)(2) of the Act.

                  As part of “Medicare Antigen Preparation” (OEI-09-00-00530),
                  published in 2000, the Office of Inspector General evaluated a probe
                  sample of allergy services. Based on medical review, most beneficiaries
                  in the sample received substandard and poorly documented care. These
                  concerns led us to contract with practicing allergists and
                  otolaryngologists to review the medical records of a random cluster

OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                    i
E X E C U T I V E               S U     M M A R Y


                   sample of 400 Medicare immunotherapy patients and
                   1,434 allergen immunotherapy and related services they received in
                   2001. We also contracted with a certified professional coder to
                   determine if each service was documented adequately and billed with
                   the correct code.


                   FINDINGS
                   Sixty-two percent of the allergen immunotherapy and related
                   services allowed by Medicare in 2001 did not meet program
                   requirements, resulting in $75 million in improper payments. Our
                   medical reviewers found that 31 percent of allergen immunotherapy and
                   related services allowed by Medicare in 2001 were not medically
                   necessary (and, therefore, noncovered). These services generally were
                   not indicated or were provided as part of an immunotherapy regimen
                   that lasted longer than clinically acceptable. Furthermore, 7 percent of
                   allergen immunotherapy and related services were billed with an
                   incorrect code and 29 percent were undocumented. Six percent had
                   multiple errors, yielding an overall error rate of 62 percent, resulting in
                   $75 million in improper payments.1
                   In the absence of national guidance, some carriers have adopted
                   policies that diverge from professionally recognized standards of
                   health care. National Medicare coverage and payment guidelines
                   regarding allergen immunotherapy are very limited. In the absence of
                   national guidelines, carriers have implemented policies that are
                   sometimes inconsistent with Joint Task Force standards. For instance,
                   at least one carrier allows reimbursement for injections given at home,
                   although the standards clearly state that, because of the risk of adverse
                   reactions, shots should be delivered only in a clinical setting.
                   The care provided to approximately 70 percent of Medicare
                   beneficiaries who received allergen immunotherapy in 2001 was
                   inconsistent with professionally recognized standards of health
                   care. In addition to the service-level review, our reviewers also
                   examined the entire course of treatment for each beneficiary in our
                   sample. In approximately 70 percent of cases, the reviewers found that
                   some aspect of the beneficiary’s allergy testing or treatment departed
                   significantly from one or more of the Joint Task Force standards. For


                   1 Difference due to rounding.




 OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                  ii
E X E C U T I V E              S U     M M A R Y


                   example, 20 percent of beneficiaries on allergen immunotherapy did not
                   have conditions for which allergy shots were appropriate or did not have
                   allergy tests that showed reactions to any potential allergens.
                   Treatment for 13 percent was contraindicated by concomitant conditions
                   or the use of beta-blockers. Nearly 22 percent of beneficiaries received
                   shots for longer than is acceptable, because they were not experiencing
                   any clinical benefit or had been receiving shots for many years without
                   being reassessed. Other examples include identified situations wherein
                   beneficiaries received allergy tests that lacked proper controls,
                   injections that were delivered in a nonclinical setting, and follow-up
                   care that was too infrequent to adequately monitor the patient or
                   involved unnecessary repeat allergy tests.


                   RECOMMENDATIONS
                   The large number of payment errors we found indicates that allergen
                   immunotherapy is a significant Medicare vulnerability. That
                   vulnerability has expanded as Medicare allowances for allergen
                   immunotherapy and related services have increased since we conducted
                   our inspection. To address this growing problem, we recommend that
                   the Centers for Medicare & Medicaid Services (CMS):
                   Require carriers to educate physicians who provide allergen
                   immunotherapy to Medicare beneficiaries about coverage, coding,
                   and documentation requirements.
                   Develop national coverage criteria for allergen immunotherapy
                   based on professionally recognized standards of health care.
                   In addition to these recommendations, we have forwarded information
                   on the medically unnecessary, miscoded, and undocumented services
                   identified in our sample to CMS for appropriate action.


                   AGENCY COMMENTS
                   In its comments to our draft report, CMS stated that it is prepared to
                   develop and disseminate educational materials and develop new
                   coverage criteria for allergen immunotherapy services. CMS has
                   identified two possibilities for developing national coverage criteria for
                   allergen immunotherapy: adapting criteria directly from current
                   professional society standards or opening a National Coverage
                   Determination. CMS states that either option would require up to 12
                   months to fully implement, and that educating physicians on existing


 OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                   iii
E X E C U T I V E              S U     M M A R Y


                   coding, documentation, and coverage requirements depends on the
                   course chosen for developing national coverage criteria.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate CMS’s support for our recommendations to increase
                   physician education and to develop national coverage criteria based on
                   professionally recognized standards of health care. Since the CMS
                   letter identifies various methods for implementing the
                   recommendations, we request that CMS provide to us an action plan
                   that clarifies the specific steps it intends to take to fully implement the
                   recommendations.




 OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                   iv
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i




         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 7

                    Improper payments of $75 million . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                    Medicare carrier policies diverge from professionally 

                    recognized standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                    Seventy percent of beneficiaries’ care substandard . . . . . . . . . . . . . 10 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 



                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                    Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                    A: Professionally Recognized Standards of Care . . . . . . . . . . . . . . . 17 


                    B: Statistical Confidence Intervals and T-tests . . . . . . . . . . . . . . . . 22 


                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

Δ   I N T R O D U C T I O N                              



                  OBJECTIVE
                  To determine (1) if allergen immunotherapy and related services met
                  Medicare coverage and documentation requirements, and (2) if allergen
                  immunotherapy provided to Medicare beneficiaries was of a quality that
                  met professionally recognized standards of health care.


                  BACKGROUND
                  Allergies: What are they, and how are they diagnosed and treated?
                  One in six Americans suffers from allergies—hypersensitive immune
                  reactions to substances that are harmless to nonallergic people. Specific
                  allergy triggers, or allergens, vary among sufferers, but commonly
                  include animal dander, molds, pollens, and foods. Allergy symptoms
                  range from mild respiratory irritation to anaphylaxis, a systemic and
                  potentially fatal allergic reaction.

                  An allergist2 uses allergy tests, along with his or her knowledge of
                  possible environmental exposures and the patient’s history, to diagnose
                  allergies and determine the substances to which a patient is allergic.3
                  Prick and intradermal skin tests are the most widely used diagnostic
                  tests, although blood tests and skin endpoint titration are sometimes
                  used, particularly by otolaryngic allergists. Skin tests must be
                  administered with positive and negative controls to properly interpret
                  the patient’s reactions.4
                  Several treatment options for allergies exist. If less costly measures are
                  ineffective, the physician may start the patient on a program of allergy
                  shots. In this treatment, also called allergen immunotherapy, a
                  physician administers gradually increasing amounts of an extract
                  containing one or more allergens until the patient reaches a
                  maintenance dose. The patient’s symptoms should generally improve
                  within 1 year of shots at the maintenance dose. If not, the physician
                  should explore other treatment options. Since many patients experience


                  2 Two types of specialist generally provide allergy care: allergist/immunologists and

                   otolaryngic allergists. Both must undergo specialized training and examination.
                   Allergist/immunologists provide the majority of Medicare allergy services.
                  3 Joint Task Force on Practice Parameters. “Practice Parameters for Allergy Diagnostic
                   Testing.” Annals of Allergy, Asthma, & Immunology. (1995;75:543-625)
                  4 Joint Task Force on Practice Parameters. “Allergen immunotherapy: a practice
                   parameter.” Annals of Allergy, Asthma, & Immunology. (2003;90:S1-S40)



OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                    1
       I N T R O D          U C T         I O N


                              a prolonged asymptomatic period after several years of successful
                              immunotherapy, the physician should reevaluate the beneficiary’s need
                              for continued treatment after 3 to 5 years of maintenance shots.5
                              Allergy shots are generally safe, but involve a small risk of triggering
                              adverse events, including anaphylaxis, and should be given only in a
                              clinical setting appropriate for managing such reactions. Providers
                              must be especially careful with the elderly, because older adults are
                              more likely to have health problems or use medications that increase
                              the risks associated with allergy shots. In particular, the use of beta-
                              blockers can make anaphylaxis more severe and difficult to treat should
                              it occur. Severe, uncontrolled asthma and significant cardiovascular
                              disease also reduce a patient’s chance of surviving a systemic reaction to
                              allergy shots. Immunotherapy for patients with such conditions is
                              appropriate only if the benefits of treatment clearly outweigh the
                              increased risks, e.g., the patient has a life-threatening venom allergy.6
                              Medicare coverage of and requirements for immunotherapy services
                              According to the National Claims History Data File, Medicare allowed
                              $130 million for allergen immunotherapy and related services provided
                              to 202,359 beneficiaries in 2001. As shown in Figure 1, $49 million was
                              allowed for preparing allergen extracts and $51 million for injections,
                              which are treated as distinct services for Medicare reimbursement.7 In


             FIGURE 1
Medicare reimbursement
           for allergen          Tests                                             Extracts
    immunotherapy and 
        $12 million                                        $49 million
                                                                                                            Other
       related services 

                                                                                                         Immunotherapy
                                                                                                           $6 million




                                                                                   Injections
                                                                                   $51 million
                                    Ancillary
                                   $12 million

                            Source: CMS National Claims History Data File, 2001

                              5 Ibid.
                              6 Ibid.
                              7 Normally, Medicare pays 80 percent of allowed charges, and the beneficiary pays the
                                remaining 20 percent as coinsurance.



         OEI-09-00-00531      ALLERGEN IMMUNOTHERAPY      FOR   MEDICARE BENEFICIARIES                                2
I N T R O D        U C T     I O N


                    addition, Medicare allowed $12 million for allergy tests furnished to
                    beneficiaries on allergy shots in 2001 and another $12 million for
                    ancillary services, such as office visits, billed by the provider of an
                    immunotherapy service.

                    Provisions of the Social Security Act (the Act) and related regulations
                    govern Medicare reimbursement of allergy services. Section
                    1862(a)(1)(A) of the Act, implemented by 42 CFR § 411.15(k), limits
                    Medicare coverage to services that are medically necessary. Section
                    1833(e) of the Act, as reflected in 42 CFR § 424.5(a)(6), requires that
                    providers furnish sufficient information to determine the amount due.
                    In addition, section 1156(a)(2) of the Act requires that providers ensure
                    that all health care services they bill to Medicare, including allergy
                    services, are of a quality that meets professionally recognized standards
                    of health care. “Professionally recognized standards of health care” are
                    defined by 42 CFR § 1001.2 as “. . . Statewide or national standards of
                    care . . . that professional peers of the individual or entity . . . recognize
                    as applying to those peers practicing or providing care within a State.”

                    The only national rules specific to Medicare coverage of allergen
                    immunotherapy appear in the National Coverage Determinations
                    Manual. Section 110.9 of the manual precludes reimbursement for
                    allergen immunotherapy delivered via antigen drops placed under the
                    tongue. Sections 110.11 and 110.13 limit certain types of testing and
                    treatment for food allergies. Other Medicare manual sections provide
                    rules for proper billing of allergy services, but contain no additional
                    restrictions on coverage. In the absence of national rules, many carriers
                    have instituted Local Medical Review Policies (LMRP) that address
                    allergy services.

                    The Joint Task Force on Practice Parameters develops standards for the
                    diagnosis and treatment of allergies that embody generally accepted
                    practices within the profession. The three societies that make up the
                    Joint Task Force—the American Academy of Allergy, Asthma, and
                    Immunology, the American College of Allergy, Asthma, and
                    Immunology, and the Joint Council of Allergy, Asthma, and
                    Immunology—represent an estimated 95 percent of the
                    allergist/immunologists practicing in the United States, according to the
                    chair of the Task Force. In 1995, the Task Force published “Practice
                    Parameters for Allergy Diagnostic Testing,” which outlines the proper
                    use of clinical and laboratory tests for allergies. “Allergen
                    immunotherapy: a practice parameter [sic],” which was published in


 OEI-09-00-00531    ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                      3
I N T R O D        U C T      I O N


                    1996 and updated in 2003, provides standards for evaluating and
                    treating allergic patients. The Joint Task Force standards specify
                    medical necessity criteria for, contraindications to, and the appropriate
                    duration of allergen immunotherapy. They also outline proper
                    procedures for administering allergy tests, preparing and delivering
                    injections, and providing follow-up care. Because, to our knowledge,
                    there exist no competing local or State standards for allergen
                    immunotherapy, we considered the Joint Task Force standards to be
                    “professionally recognized standards of health care” under section
                    1156(a)(2) of the Act. Appendix A lists the specific standards that are
                    related to the findings in this report.8
                    Prior Office of Inspector General work
                    As part of “Medicare Allergen Preparation” (OEI-09-00-00530),
                    published in 2002, we evaluated a probe sample of a small number of
                    allergy services rendered to Medicare beneficiaries in 2000 and 2001.
                    Seventeen of the twenty-seven services reviewed as part of this probe
                    were inadequately documented or not medically necessary.
                    Beneficiaries of the 12 services determined to be medically unnecessary
                    had allergy test results that did not demonstrate the need for
                    immunotherapy, had contraindications, or were on allergy shots for
                    extended periods without clinical justification.


                    METHODOLOGY
                    Our primary methodology involved medical review of a sample of allergy
                    services randomly selected from the Medicare 2001 National Claims
                    History Date File. Because our objective required us to address both
                    beneficiary- and service-level issues, we used a two-stage cluster sample
                    to select records for the medical review. As diagramed in Figure 2 on
                    the next page, we first defined the beneficiary universe as all Medicare
                    beneficiaries on allergen immunotherapy in 2001, i.e., for whom at least
                    one allergen immunotherapy service was allowed.9 From this universe


                    8 The 2003 update clarified and expanded the standards that had been published in 1996.

                     The allergy specialists who conducted the medical review for this study stated that the
                     standards were considered “good practice” for many years prior to either publication.
                    9 In defining the beneficiary universe, we regarded services listed under the heading
                     “Allergen Immunotherapy” in the 2001 Current Procedural Terminology (CPT, codes
                     95115 through 95199) as “allergen immunotherapy services,” except code 95180, Rapid
                     desensitization procedure, each hour. We excluded CPT code 95180 because it is
                     sometimes used to bill for an emergency procedure, rather than ongoing immunotherapy.



 OEI-09-00-00531    ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                      4
              I N T R O D 
U C T                     I O N


                                         of 202,359 beneficiaries, we selected 400 to create the beneficiary
                                         sample. Next, we defined the service universe as all Part B allergy and
                                         ancillary services allowed in 2001 for members of the beneficiary
                                         universe.10 The service universe comprised 4,325,670 services, with
                                         $130,388,941 allowed. To obtain the service sample, we randomly
                                         selected four services billed for each sampled beneficiary. Since some
                                         beneficiaries had fewer than 4 services allowed in 2001, our sample
                                         contained 1,434 services.


           FIGURE 2
           Graphical
representation of the
             sample                                                                                  Service Universe
                                     Beneficiary Universe                                            Allergy and ancillary services
                                     Beneficiaries on                                                provided to beneficiary universe
                                     allergen immunotherapy                                          in 2001; N = 4,325,670
                                     in 2001; N = 202,359

                                                                                                       Services provided to
                                                                                                       beneficiaries in sample
                                                 Beneficiary                                                 # = 8,051
                                                  sample
                                                  n = 400                                            Select             Service
                                                                                                     up to              sample
                                                                                                     4 per             n = 1,434
                                                                                                     beneficiary




                           Source: Office of Evaluation and Inspections, 2004


                                         After selecting the cluster sample, we requested medical records from
                                         all providers who billed at least one allergy service in 2001 on behalf of
                                         the sampled beneficiaries. We requested that each provider send all
                                         records related to each beneficiary’s allergy treatment, including the
                                         patient’s history and the results of allergy tests. We made at least two
                                         follow-up requests to each provider who did not respond to our initial
                                         request, for a total of three contacts. Our overall response rate was
                                         96 percent, because eight physicians did not respond to our repeated
                                         requests for records, and we chose not to contact eight others.11




                                         10 For the service universe, we regarded services listed under the CPT headings “Allergy

                                            Testing” and “Allergen Immunotherapy” (CPT codes 95001 through 95199) as “allergy
                                            services” and services billed by the provider of an allergy service as “ancillary services.”
                                         11 One was under criminal investigation, one did not maintain records in English, two could
                                            not be located, and four had recently provided records for another allergy study.



                 OEI-09-00-00531         ALLERGEN IMMUNOTHERAPY       FOR   MEDICARE BENEFICIARIES                                         5
I N T R O D        U C T      I O N


                    We contracted with allergist/immunologists and otolaryngic allergists to
                    review the records using a protocol we developed in collaboration with
                    the medical reviewers.12 The protocol had two parts. First, the
                    reviewers determined if the beneficiary’s allergy care as a whole met
                    Joint Task Force standards. Then, the reviewers determined if each
                    individual service in the sample was medically necessary. If the
                    physician reviewer found that the beneficiary was an appropriate
                    candidate for immunotherapy, a Certified Professional Coder then
                    determined if each service was documented adequately and billed
                    according to the definitions in the 2001 CPT Manual. We did not share
                    the results of our review with the Medicare carriers that paid for the
                    services.

                    Along with the medical and coding reviews, we analyzed legislation,
                    Medicare regulations, and Medicare and carrier LMRPs related to
                    allergy services and compared them to the Joint Task Force standards.

                    Because we reviewed only allergy and related services provided in 2001,
                    our results cannot be extrapolated to other periods. Accordingly, we
                    make no inferences to subsequent years. However, to our knowledge,
                    the Centers for Medicare & Medicaid Services (CMS) has made no
                    national policy changes that would impact the incidence of allergen
                    immunotherapy payment errors since 2001.

                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                    12 A physician of the same specialty as the beneficiary’s primary provider of allergen
                      services reviewed each record.



 OEI-09-00-00531    ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                    6
   Δ       F I N D I N G S 


Sixty-two percent of the allergen immunotherapy             Medicare allowed approximately
and related services allowed by Medicare in 2001            $130 million in 2001 for allergen
                                                            immunotherapy and related services.
 did not meet program requirements, resulting in
                                                            According to our medical review,
               $75 million in improper payments
                                                            31 percent of these services were not
                         medically necessary (and, therefore, noncovered). An additional
                         7 percent were miscoded and 29 percent were undocumented. Six
                         percent had multiple errors, yielding an overall error rate of
                         62 percent.13 Figure 3 groups the improperly paid services in our
                         sample by the type of error and gives statistical projections of these
                         errors to the population.
                         Figure 3: Medically Unnecessary, Miscoded, and Undocumented Allergen
                         Immunotherapy and Related Services

                                                                               Sample                         Projected

                                                                                        Allowed       Services     Allowed Amount
                         Type of Error                             Services             Amount     (Proportion)          (Millions)
                         Medically unnecessary
                           - Not indicated                              208          $ 7,170.58            0.15                    $ 17
                           - Excessive duration                         315        $ 10,566.99             0.24                    $ 22
                           - (Both not indicated and
                                                                        (77)       ($ 1,965.31)          (0.08)               ($ 6.5)
                              excessive duration)
                         Total medically unnecessary                    446        $ 15,772.26             0.31                    $ 33
                         Total miscoded (net)                           129          $ 2,577.84            0.07                   $ 4.3
                         Undocumented
                           - Nonresponse                                  29            $567.13            0.03                    $2.2
                           - Missing documentation                      404         $23,311.64             0.26                   $42.5
                         Total undocumented                             433         $23,837.85             0.29                    $45
                         (Overlapping errors)                         (101)        ($ 3,591.27)          (0.06)               ($ 6.4)
                         Total                                          907        $ 38,596.68             0.62                    $ 75

                         Source: M
                                 	 edical Review of Year 2001 Allergen Immunotherapy and Related Services by Practicing Allergy
                                 Specialists. Lines may not sum to totals due to rounding.



                         Medically unnecessary. Medical reviewers determined that 31 percent of
                         the allergen immunotherapy and related services Medicare allowed in
                         2001 were not medically necessary because immunotherapy was not
                         indicated or the beneficiary had been on allergy shots for an excessive
                         length of time. Immunotherapy services were more likely (34 percent)



                         13 Confidence intervals for all statistics appear in Appendix B.




       OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY      FOR   MEDICARE BENEFICIARIES                                                 7
F   I N D I N G        S


                      to be medically unnecessary than allergy tests (5 percent) or ancillary
                      services (11 percent).
                      Medically unnecessary: Not indicated. There was no clinical basis for
                      approximately 15 percent ($17 million) of the allergen immunotherapy
                      and related services that Medicare beneficiaries received. Medical
                      reviewers determined that the allergy test results for 74 percent of
                      these cases (i.e., of the 15 percent that did not have a clinical basis) did
                      not indicate that the beneficiaries had any allergies, and 3 percent were
                      not supported by any allergy test. The rest were not medically
                      necessary because patient histories did not demonstrate that allergy
                      shots were likely to alleviate the beneficiaries’ complaints or had never
                      been completed.
                      Medically unnecessary: Excessive duration. According to our reviewers,
                      24 percent ($24 million) of allergen immunotherapy and related services
                      were provided to beneficiaries for whom allergy shots were indicated
                      originally, but whose duration of treatment exceeded Joint Task Force
                      standards. The reviewers found some of these services to be medically
                      unnecessary because the beneficiaries had not experienced any clinical
                      benefits after 1 year of maintenance treatment. Other services were
                      deemed unnecessary because the beneficiaries had been on
                      immunotherapy for extended periods of time without evidence that such
                      an extended course of immunotherapy was needed.
                      Miscoded. In 2001, Medicare allowed approximately $13 million for
                      allergen immunotherapy and related services that were billed with a
                      code that did not accurately reflect the service provided.14 If these
                      services had been coded properly, Medicare would have allowed only
                      $9 million, yielding an overpayment of $4 million. The most common
                      error was billing CPT code 95117 (two or more injections of an allergen
                      extract) when the documentation showed only one shot was provided.
                      Other problems included billing for a greater volume of extract than
                      was actually prepared or billing preparation of a multi-dose extract vial
                      as preparation of a more expensive, single-dose vial. In several
                      instances, physicians coded nonallergy services—including two lupron

                      14 The Certified Professional Coder reviewed only services provided to Medicare

                           beneficiaries who were appropriate candidates for allergen immunotherapy. Our
                           projections for “miscoded” services, therefore, are actually projections for “miscoded
                           services provided to beneficiaries who were appropriate candidates for allergen
                           immunotherapy.” As a result, it is likely that we have underestimated the amount of
                           money associated with miscoded allergy services.



    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY     FOR   MEDICARE BENEFICIARIES                                       8
F   I N D I N G        S


                      injections, a vitamin B12 injection, and an echocardiogram—as allergy
                      shots.
                      Undocumented. We did not receive substantiating documentation for
                      433 of the 1,434 services in our sample (29 percent). Despite repeated
                      attempts, physicians did not provide any medical records for 29 of the
                      services in our sample. The physicians who rendered another 404 of the
                      services sent records that did not substantiate that any service was
                      performed on the date claimed. Based on these findings, we estimate
                      that Medicare allowed approximately $45 million in 2001 for
                      undocumented allergen immunotherapy and related services. Although
                      some cases of missing documentation may be attributable to billing
                      errors (e.g., putting the wrong date on the claim form), others may
                      represent services not rendered. In any case, claims for services that
                      lack sufficient documentation to show that care was provided do not
                      meet the requirements of section 1833(e) of the Act.

                      Services billed with codes describing the preparation of immunotherapy
                      extracts were undocumented most frequently. Although the Joint Task
                      Force stresses the importance of documenting the contents of allergen
                      extracts, 62 percent of these services lacked any substantiating
                      documentation.



    In the absence of national guidance,                As stated in the background, Medicare
some carriers have adopted policies that                has little national coverage policy
                                                        addressing allergen immunotherapy. In
 diverge from professionally recognized
                                                        the absence of national guidance, many
                standards of health care
                                                        carriers have instituted LMRPs that
                      address allergy-related issues. Some local, and even national, policies
                      contradict the Joint Task Force standards. For example, section 110.11
                      of the National Coverage Decisions Manual prohibits a particular,
                      nontraditional, kind of immunotherapy for food allergies, but does not
                      restrict the use of traditional immunotherapy for this purpose. The
                      Joint Task Force standards, on the other hand, state that current
                      scientific evidence does not support the use of any allergen
                      immunotherapy modality in managing food allergies.

                      Another example concerns patients who self-administer their allergy
                      shots. Although the Joint Task Force standards clearly and strongly
                      state that immunotherapy should not be given at home because of the
                      risk of adverse reactions, no national Medicare policy addresses the
                      issue. Most LMRPs are consistent with the Joint Task Force and

    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES               9
    F   I N D I N G        S


                          indicate that shots should be provided in a setting appropriate for
                          managing potential adverse reactions. However, one local policy states,
                          “. . . it is expected that when the patient is stable on chronic therapy,
                          [allergen immunotherapy] injections may be self-administered.”15



 The care provided to approximately 70 percent of                In addition to examining the
      Medicare beneficiaries who received allergen               medical necessity and
                                                                 documentation of individual
     immunotherapy in 2001 was inconsistent with
                                                                 allergy services, our reviewers
professionally recognized standards of health care
                                                                 also assessed each beneficiary’s
                          entire course of immunotherapy. Since national Medicare coverage
                          rules for allergen immunotherapy are very limited, we compared
                          beneficiaries’ treatment to the Joint Task Force standards for allergy
                          testing and allergen immunotherapy. Overall, 30 percent of
                          beneficiaries received care that met all Joint Task Force standards
                          examined, 26 percent received care that did not meet standards related
                          to one of the areas listed below, and 44 percent received care that did
                          not meet standards related to two or more of these areas:16
                                  •   clinical indications for immunotherapy (20 percent),

                                  •   contraindications (13 percent),

                                  •   duration of immunotherapy (22 percent),

                                  •   allergy diagnostic testing (15 percent),

                                  •   preparation and provision of injections (22 percent), and

                                  •   follow-up care (44 percent).
                          Approximately 20 percent of beneficiaries who received allergen
                          immunotherapy services in 2001 had no clinical need for treatment
                          “Allergen immunotherapy should be considered for patients who have
                          demonstrable evidence of [reactivity] to clinically relevant allergens,”
                          but the medical records for one in five beneficiaries lacked evidence that
                          allergen immunotherapy was medically necessary.17 According to the


                          15 Cahaba Government Benefit Administrators, Allergen Immunotherapy, L5390.
                          16 In addition to the 16 beneficiaries for whom we did not receive records, 12 beneficiaries

                               who were not actually on allergen immunotherapy in 2001 appeared in our sample,
                               mostly as a result of billing errors. Hence, except where otherwise noted, we used a
                               denominator of 372 beneficiaries on immunotherapy for the percentages in this finding.
                          17 “Allergen immunotherapy: a practice parameter.”




        OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY    FOR   MEDICARE BENEFICIARIES                                     10
F   I N D I N G 
S


                      patient histories that were available (9 percent of beneficiaries did not
                      have a history in their record), 3 percent of beneficiaries on allergy shots
                      had medical problems for which immunotherapy is not appropriate
                      treatment. For example, several patients received allergy shots for
                      chronic hives or angioedema (a type of swelling), although no clinical
                      studies support treating these conditions with immunotherapy
                      according to the Joint Task Force standards. Whether or not
                      immunotherapy was appropriate for their complaints, 17 percent of
                      Medicare immunotherapy patients did not show sufficient reactivity on
                      their allergy tests to warrant treatment. The medical records for four of
                      these beneficiaries contained no indication that they had ever received
                      an allergy test.
                      Thirteen percent of beneficiaries received immunotherapy despite
                      contraindications that should have precluded it
                      Approximately 13 percent of beneficiaries on immunotherapy had
                      conditions for which our reviewers believed the attendant risk
                      outweighed the potential benefit of allergy shots. The most common
                      contraindications included taking beta-blockers and having
                      compromised lung function. Other contraindications included a recent
                      heart attack or arrhythmia, bypass surgery, chronic heart failure,
                      prostate cancer, and previous stroke. Nearly 28 percent of the
                      beneficiaries who received medically unnecessary immunotherapy also
                      had contraindications.
                      Approximately 22 percent of Medicare immunotherapy patients continued
                      treatment well beyond clinical norms without justification
                      The Joint Task Force standards state that if a patient has not
                      experienced clinical improvement after 1 year of maintenance-dose
                      immunotherapy, the physician should pursue other treatment options.
                      Although approximately 9 percent of beneficiaries experienced no
                      clinical benefit after several years of immunotherapy, they continued to
                      receive shots on a regular basis. For example, one beneficiary remained
                      on immunotherapy for 39 years, but still had significant allergy
                      symptoms and needed numerous medications.

                      The practice parameter also states that the physician and patient
                      should reevaluate the need for continued immunotherapy every 3 to
                      5 years. Seventeen percent of Medicare immunotherapy patients
                      received shots for longer periods, with no indication in the medical
                      record that the physician had ever considered discontinuing
                      immunotherapy. At least 10 percent of Medicare beneficiaries had been


    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                  11
F   I N D I N G 
S


                      on allergy shots for 20 years or more without a reevaluation. In one
                      extreme case, a beneficiary received continuous immunotherapy for
                      47 years; the treating physician did not try new medications that had
                      been developed during the 47 years, which may have eliminated the
                      need for the shots. Also, the physician never attempted a trial cessation
                      of immunotherapy, which our reviewers believed should have occurred
                      in such a prolonged course of treatment.
                      Fifteen percent of beneficiaries on immunotherapy received inappropriate
                      allergy tests
                      Based on “Practice Parameters for Allergy Diagnostic Testing,”
                      approximately 6 percent of Medicare beneficiaries on immunotherapy
                      received allergy tests to allergens to which they reported no exposure or
                      for which allergen immunotherapy was not indicated. Some physicians
                      administered skin tests for substances, such as bacteria or smog, for
                      which skin testing is of unproven diagnostic value. Others tested
                      beneficiaries with allergens to which they had little or no history of
                      exposure. A few other beneficiaries received tests for multiple cross-
                      reactive allergens when a test for a single representative member of the
                      allergen group would have sufficed.18 Approximately 2 percent were
                      tested to an excessive number of potential allergens, especially foods.
                      “This is a record for me: 141 prick skin tests and 91 intradermal tests,”
                      wrote one reviewer.

                      For the results of skin tests to be meaningful, they must be performed
                      with appropriate controls and the test reagents must be provided at the
                      correct strength.19 Physicians used incorrect procedures, however, to
                      test about 1 of every 10 Medicare beneficiaries on immunotherapy in
                      2001. The most common error was performing skin tests with no
                      negative or positive controls, rendering accurate interpretation
                      impossible. Physicians used reagents that were too strong for other
                      tests, resulting in a high probability of false positive results. Physicians
                      tested approximately 6 percent of beneficiaries using serial endpoint
                      titration, a technique used primarily by otolaryngologists. Our
                      reviewers stated that the physicians for 27 percent of these patients
                      performed the technique or interpreted the results incorrectly.




                      18 See Summary Statement 26 from “Allergen immunotherapy: a practice parameter” in
                        Appendix A.
                      19 “Practice Parameters for Allergy Diagnostic Testing.”




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                12
F   I N D I N G 
S


                      Twenty-two percent of beneficiaries received allergy shots that were
                      prepared improperly, provided too frequently, or delivered in an
                      inappropriate setting
                      Approximately 8 percent of all Medicare immunotherapy patients
                      received an allergen extract that was not prepared according to Joint
                      Task Force standards. More than half of these extracts combined
                      incompatible allergens or contained an excessive number of allergens,
                      both of which can reduce treatment efficacy. Others contained allergens
                      to which the beneficiary had tested negative or that had no correlation
                      to the beneficiary’s allergy history. Some beneficiaries (2 percent
                      overall) received extracts containing allergens, such as foods and poison
                      ivy, for which immunotherapy is not indicated.

                      Patients on a maintenance schedule should generally receive injections
                      at 2- to 4-week intervals, but allergy shots were provided too frequently
                      to approximately 11 percent of Medicare beneficiaries. Providers for
                      these beneficiaries generally did not increase the amount of time
                      between shots after a maintenance dosage was reached, which should
                      normally be attempted, according to Joint Task Force standards. For
                      example, one beneficiary received weekly shots for 28 years, without
                      any indication that the physician ever tried longer intervals between
                      shots.

                      At least 7 percent of beneficiaries received their allergy shots at home
                      despite Joint Task Force standards that state “immunotherapy
                      injections should not be administered at home because of the risk of
                      inadequate recognition and treatment of systemic reactions.”20 These
                      beneficiaries administered their own shots or were treated by family
                      members. According to the progress notes in her medical record, one
                      beneficiary received shots “on the rode [sic]” in her mobile home. An
                      additional 3 percent of beneficiaries received shots away from their
                      allergy specialists’ offices, but in locations that were not identified in
                      their medical records.




                      20 “Allergen immunotherapy: a practice parameter.”




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                   13
F   I N D I N G        S


                      Some Medicare immunotherapy patients did not receive adequate follow-up
                      care
                      The Joint Task Force standards advise physicians to evaluate their
                      immunotherapy patients every 6 to 12 months, but 24 percent of
                      beneficiaries on allergy shots did not have regular follow-up visits with
                      their allergy specialists. For example, one medical record showed that
                      the patient had not seen her allergy specialist in more than 10 years.
                      Another beneficiary, on immunotherapy for approximately 20 years, had
                      no documented follow-up visits to his allergist.

                      Even when conducted, followup was inappropriate for 27 percent of
                      beneficiaries. For example, approximately 7 percent of patients had
                      routine periodic skin tests without clinical justification—one beneficiary
                      was inappropriately retested every time she had an exacerbation of her
                      symptoms and another had skin tests at least nine times during a
                      6-year period. Other providers made no note of the beneficiary’s
                      response to immunotherapy or did not respond appropriately to changes
                      in the beneficiary’s symptoms or the results of reevaluations.




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                 14
R   E C O        M M E N D A T          I O N           S
Δ       R E C O M M E N D A T I O N S                                         





                      Allergen immunotherapy services, while valuable, often are provided in
                      an inappropriate manner and result in a significant number of improper
                      Medicare payments. As allowances for allergen immunotherapy and
                      related services have increased from $130 million in 2001 to
                      approximately $171 million in 2003, so has Medicare’s vulnerability to
                      related payment errors. Also, current national Medicare policy on
                      immunotherapy is limited, and some national and local policies do not
                      reflect current professionally recognized standards of health care.
                      Therefore, we recommend that CMS:
                      Instruct its carriers to educate physicians who provide allergen
                      immunotherapy to Medicare beneficiaries about existing coding,
                      documentation, and coverage requirements

                      Develop national coverage criteria for allergen immunotherapy that are
                      based on professionally recognized standards of health care

                      In addition to these recommendations, we have forwarded information
                      on the medically unnecessary, miscoded, and undocumented services
                      identified in our sample to CMS for appropriate action.


                      AGENCY COMMENTS
                      In its comments to our draft report, CMS stated that it is prepared to
                      develop and disseminate educational materials and develop new
                      coverage criteria for allergen immunotherapy services. CMS has
                      identified two possibilities for developing national coverage criteria for
                      allergen immunotherapy: adapting criteria directly from current
                      professional society standards or opening a National Coverage
                      Determination. CMS states that either option would require up to
                      12 months to fully implement,and that educating physicians on existing
                      coding, documentation, and coverage requirements depends on the
                      course chosen for developing national coverage criteria. The complete
                      text of CMS’s comments are included starting on page 26.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We appreciate CMS’s support for our recommendations to increase
                      physician education and to develop national coverage criteria based on
                      professionally recognized standards of health care. Since the CMS
                      letter identifies various methods for implementing the

    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                 15
R   E C O        M M E N D A T          I O N           S


                      recommendations, we request that CMS provide to us an action plan
                      that clarifies the specific steps it intends to take to fully implement the
                      recommendations.




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                   16
Δ   A P P E N D I X                 A


     Professionally Recognized Standards of Care

                  We compared the findings of our medical review with the professionally
                  recognized standards of health care found in the 2003 version of
                  “Allergen immunotherapy: a practice parameter” and “Practice
                  Parameters for Allergy Diagnostic Testing.” Although “Allergen
                  immunotherapy” was updated in 2003, our contracted allergy specialists
                  stated that the standards therein were considered “good practice” for
                  many years prior, and are, therefore, applicable to services provided in
                  2001.

                  “Allergen immunotherapy” expresses the standards as a series of
                  “summary statements,” each addressing a single topic related to
                  immunotherapy. “Allergy Diagnostic Testing” consists primarily of
                  similar one- or two-sentence guidelines. The particular summary
                  statements and guidelines relevant to our analysis are quoted below.
                  “Allergen immunotherapy: a practice parameter”
                  Summary Statement 9. Immunotherapy is effective for treatment of
                  allergic rhinitis, allergic asthma, and stinging insect hypersensitivity.
                  Therefore, immunotherapy merits considerations in patients with these
                  disorders.
                  Summary Statement 10. Clinical studies to date do not support the use of
                  allergen immunotherapy for food hypersensitivity, chronic urticaria,
                  and/or angioedema. Therefore, allergen immunotherapy for patients
                  with these conditions is not recommended.
                  Summary Statement 11. Clinical parameters, such as symptom scores and
                  medication use, may be useful measures of the efficacy of
                  immunotherapy in a clinical setting. Routine periodic skin testing or in
                  vitro IgE antibody testing of patients receiving immunotherapy is not
                  recommended.
                  Summary Statement 14. Patients taking β-adrenergic blocking agents
                  may be at increased risk when receiving immunotherapy, because
                  [beta]-receptor blockade can make treatment of anaphylaxis more
                  difficult. Therefore, [beta]-adrenergic blocking agents are relative
                  contraindications for immunotherapy.
                  Summary Statement 15. Medical conditions that reduce the patient’s
                  ability to survive a systemic reaction are relative contraindications for
                  allergen immunotherapy. Examples include severe asthma


OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                  17
A   P   P E N D       I X ~    A


                      uncontrolled by pharmacotherapy and significant cardiovascular
                      disease.
                      Summary Statement 16. Allergen immunotherapy should be administered
                      in a setting where procedures that can reduce the risk of anaphylaxis
                      are in place and where the prompt recognition and treatment of
                      anaphylaxis are assured.
                      Summary Statement 17. Allergen immunotherapy should be considered
                      for patients who have demonstrable evidence of specific IgE antibodies
                      to clinically relevant allergens. The decision to begin allergen
                      immunotherapy depends on the degree to which symptoms can be
                      reduced by avoidance and medication, the amount and type of
                      medication required to control symptoms, and the adverse effects of
                      medications. Patients who wish to avoid or reduce the long-term use of
                      medications are good candidates for immunotherapy.
                      Summary Statement 18. Patients with severe, poorly controlled asthma
                      are at higher risk for systemic reactions to immunotherapy injections.
                      Summary Statement 21. The components of a clinically relevant vaccine
                      (and, therefore, a vaccine that is most likely to be effective) should be
                      selected on the basis of a careful history of relevant symptoms,
                      knowledge of possible environmental exposures, and correlation with
                      positive tests for specific IgE antibodies.
                      Summary Statement 22. The immunotherapy vaccine should contain only
                      clinically relevant allergens.
                      Summary Statement 23. Immediate-type skin testing has been the
                      primary diagnostic tool in clinical studies of allergen immunotherapy.
                      Therefore, in most patients, skin testing should be used to determine
                      whether the patient has specific IgE antibodies. Appropriately
                      interpreted and well performed [sic] in vitro tests for specific IgE
                      antibodies may also be used.
                      Summary Statement 24. Immunotherapy is effective for pollen, fungi
                      (molds), animal dander, dust mite, cockroach, and Hymenoptera
                      sensitivity. Therefore, immunotherapy should be considered as part of
                      the management program in patients who have symptoms related to
                      exposure to these allergens and in whom the presence of specific IgE
                      antibodies has been established.
                      Summary Statement 25. In the mixing of an allergen vaccine, the
                      following factors must be considered: (1) the cross-reactivity of the


    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                   18
A   P   P E N D       I X ~    A


                      allergens, (2) the optimal dose of each constituent, and (3) enzymatic
                      degradation of the allergens.
                      Summary Statement 26. The selection of allergens for immunotherapy
                      should be based in part on the cross-reactivity of clinically relevant
                      allergens. Many related pollen contain allergens that are cross-reactive.
                      When pollen allergens are substantially cross-reactive, selection of a
                      single pollen within the cross-reactive genus or subfamily may suffice.
                      When pollen allergens are not substantially cross-reactive, testing for
                      and treatment with multiple locally prevalent pollen [sic] may be
                      necessary.
                      Summary Statement 27. The efficacy of immunotherapy depends on
                      achieving an optimal therapeutic dose of each of the clinically relevant
                      constituents in the vaccine.
                      Summary Statement 28. Separation of aqueous extracts (vaccines) with
                      high proteolytic enzyme activities (e.g., fungi, dust mites, cockroach,
                      and insect venoms) from other extracts (vaccines) is recommended.
                      Summary Statement 43. When the patient has reached a maintenance
                      dose, the interval between injections can often be progressively
                      increased as tolerated to 4 to 6 weeks.
                      Summary Statement 44. Clinical improvement usually is observed within
                      1 year after the patient reaches a maintenance dose.
                      Summary Statement 45. Patients should be evaluated at least every 6 to
                      12 months while they receive immunotherapy.
                      Summary Statement 46. A decision to continue or stop immunotherapy
                      should be made after 3 to 5 years.
                      Summary Statement 47. The vaccine contents, informed consent for
                      immunotherapy, and administration of vaccines should be carefully
                      documented.
                      Summary Statement 48. The preferred location for the administration of
                      allergen immunotherapy is the office of the physician who prepared the
                      patient’s vaccine.
                      Summary Statement 49. Generally, patients at high risk of systemic
                      reaction should receive immunotherapy in the office of the physician
                      who prepared the patient’s vaccine.




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                19
A   P   P E N D       I X ~    A


                      Summary Statement 50. Regardless of location, allergen immunotherapy
                      should be administered under the supervision of an appropriately
                      trained physician and personnel.
                      Summary Statement 51. Immunotherapy injections should not be
                      administered at home because of the risk of inadequate recognition and
                      treatment of systemic reactions.
                      Summary Statement 55. In older adults, medications and co-morbid
                      medical conditions may increase the risk from immunotherapy.
                      Therefore, special consideration must be given to the benefits and risks
                      of immunotherapy in older adults.
                      “Practice Parameters for Allergy Diagnostic Testing”
                         • 	 To properly interpret allergy skin tests that detect immediate
                              hypersensitivity, both positive (histamine) and negative (diluent)
                              controls need to be performed.

                          • 	 The appropriate clinical indications for retesting may include
                              changing symptoms, new exposures, 3 to 5 years of venom
                              immunotherapy or evaluation of newly discovered, purified, or
                              standardized allergens.

                          • 	 Avoidance measures and extract formulations for
                              immunotherapy should be based on the skin tests coupled with
                              adequate clinical correlation, i.e., integrating with the history
                              and physical findings obtained by face-to-face contact with the
                              patient.

                          • 	 A prick/puncture skin test wheal response of at least 3 mm (with
                              equivalent erythema) > than the diluent control done at the
                              same time is required as proof of the presence of allergen specific
                              IgE.

                          • 	 The larger the prick/puncture skin test reaction, the more likely
                              it is to be of clinical significance. However, the presence of a
                              positive prick/puncture skin test per se does not establish
                              whether clinical sensitivity currently is present.

                          • 	 As a general rule, the starting test dose of intracutaneous
                              extract solutions in patients with a preceding negative
                              prick/puncture test should range between 100 and 1,000 fold
                              dilutions of the prick/puncture test solution.

                          • 	 Any reaction larger than the negative control may indicate the
                              presence of specific IgE antibody. However, given the lower

    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                 20
A   P   P E N D       I X ~    A


                              specificity of intracutaneous testing, small positive reactions
                              may not be clinically relevant.

                          • 	 The evaluation of inhalant allergy may require up to
                              70 prick/puncture tests followed by up to 40 intracutaneous
                              tests, which are ordinarily performed when prick/puncture tests
                              are negative. Under special circumstances and in certain
                              geographic areas, a greater number of prick/puncture and/or
                              intracutaneous tests may be appropriate. However, in many
                              parts of the country and probably in most cases, fewer tests are
                              required.
                          • 	 The number of prick/puncture tests performed for suspected food
                              hypersensitivity may vary from less than 20 to as many as
                              80 tests, depending on the clinical situation.
                          • 	 . . . for such agents as newsprint, formaldehyde, tobacco smoke,
                              smog, cotton, sugar, and human dander, there is insufficient
                              evidence to justify their use as allergen test reagents.




    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                     21
 Δ           A P P E N D I X                  B


Statistical Confidence Intervals

                           Statistic                                 N       Point Estimate    95% Confidence Interval

Percentage of immunotherapy-related services that should
                                                                   1,434            0.62              0.56 to 0.67
not have been paid

Amount that Medicare should not have allowed                       1,434        $75 million    $68 million to $82 million

Percentage of services that were not medically necessary           1,434            0.31              0.26 to 0.37

Amount allowed for medically unnecessary services                  1,434        $33 million    $26 million to $39 million

Percentage of immunotherapy services that were not
                                                                   1,243            0.34              0.28 to 0.40
medically necessary

Percentage of allergy tests that were not medically
                                                                   32               0.05                 < 0.11
necessary

Percentage of ancillary services that were not medically
                                                                   127              0.11              0.04 to 0.19
necessary

Percentage of services for which immunotherapy was not
                                                                   1,434            0.15              0.10 to 0.20
indicated

Amount allowed for services where immunotherapy was not
                                                                   1,434        $17 million    $12 million to $22 million
indicated

Of services for which immunotherapy was not indicated:

-the percentage for which allergy tests did not show
                                                                   208              0.74              0.56 to 0.91
reactivity

-the percentage for which no allergy test was documented           208              0.03                 < 0.08

-the percentage for which the patient’s history did not
                                                                   208              0.35              0.18 to 0.53
indicate immunotherapy

Percentage of services that were allowed for beneficiaries
                                                                   1,434            0.24              0.18 to 0.30
on immunotherapy too long

Amount allowed for services provided to beneficiaries on
                                                                   1,434        $22 million    $17 million to $28 million
immunotherapy too long

Percentage of services that were miscoded                          1,434            0.07               0.05 to 0.10

Excess amount allowed for miscoded services                        1,434        $4.3 million   $2.4 million to $6.1 million

Total amount allowed for miscoded services                         1,434        $13 million    $8.8 million to $17 million




       OEI-09-00-00531      ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                 22
    A   P   P E N D        I X ~       B    





Statistical Confidence Intervals, continued

                           Statistic                                 N       Point Estimate   95% Confidence Interval

Percentage of services that were undocumented                      1,434            0.29             0.24 to 0.34

Amount allowed for undocumented services                           1,434        $45 million   $37 million to $52 million

Percentage of extract preparations that were undocumented 357                       0.62             0.52 to 0.72

Total percentage of beneficiaries whose care did not meet
                                                                   372              0.70             0.65 to 0.75
standards

Percentage of beneficiaries whose care met standards               372              0.30             0.25 to 0.35

Percentage of beneficiaries whose care failed standards in
                                                                   372              0.26             0.22 to 0.31
one area

Percentage of beneficiaries whose care failed standards in
                                                                   372              0.44             0.39 to 0.49
multiple areas

Percentage of beneficiaries on shots who had no
                                                                   372              0.20             0.16 to 0.24
demonstrated need for treatment

Percentage of beneficiaries who had contraindications              372              0.13             0.10 to 0.17

Percentage of beneficiaries on immunotherapy too long              372              0.22             0.18 to 0.26

Percentage of beneficiaries whose allergy tests did not meet
                                                                   372              0.15             0.11 to 0.19
standards

Percentage of beneficiaries whose allergy shots were
                                                                   372              0.22             0.18 to 0.27
prepared or delivered inappropriately

Percentage of beneficiaries who received inadequate
                                                                   372              0.44             0.39 to 0.49
follow-up care

Percentage of beneficiaries who did not have a patient
                                                                   372              0.09             0.06 to 0.12
history in their record

Percentage of beneficiaries who had complaints for which
                                                                   372              0.03             0.01 to 0.04
immunotherapy is not appropriate

Percentage of beneficiaries whose allergy tests did not
                                                                   372              0.17             0.14 to 0.21
indicate a need for treatment




        OEI-09-00-00531     ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                              23
    A   P    P E N D         I X ~       B    





Statistical Confidence Intervals, continued

                             Statistic                                 N       Point Estimate   95% Confidence Interval

Percentage of with contraindications who:

    - were on beta-blockers                                          50               0.36            0.23 to 0.49

    - had compromised lung function                                  50               0.18            0.07 to 0.29

Of beneficiaries whose treatment was unnecessary, the
                                                                     74               0.28            0.18 to 0.39
percentage that also had contraindications

Percentage of beneficiaries who should have terminated
                                                                     372              0.09            0.06 to 0.11
immunotherapy because it did not benefit them clinically

Percentage of beneficiaries who were on immunotherapy
                                                                     372              0.17            0.13 to 0.20
too long without justification

Percentage of beneficiaries on immunotherapy longer than
                                                                     372              0.10            0.07 to 0.13
20 years

Percentage of beneficiaries who were tested to
                                                                     372              0.06            0.03 to 0.08
inappropriate allergens

Percentage of beneficiaries who were tested to too many
                                                                     372              0.02            0.01 to 0.04
allergens

Percentage of beneficiaries who were tested with incorrect
                                                                     372              0.10            0.07 to 0.14
procedures

Percentage of beneficiaries who were tested with skin
                                                                     372              0.06            0.04 to 0.08
endpoint titration

Percentage of skin endpoint titrations that were performed
                                                                     22               0.27            0.09 to 0.46
or interpreted incorrectly

Percentage of beneficiaries whose shots contained
                                                                     372              0.08            0.06 to 0.11
inappropriate allergens

Percentage of beneficiaries whose shots contained allergens
                                                                     372              0.02            0.01 to 0.04
for which immunotherapy is not indicated

Percentage of beneficiaries who received shots too
                                                                     372              0.11            0.08 to 0.14
frequently




        OEI-09-00-00531       ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                            24
    A   P   P E N D        I X ~       B     





Statistical Confidence Intervals, continued

                           Statistic                                    N     Point Estimate        95% Confidence Interval

Percentage of beneficiaries who received shots at home              372              0.07                    0.05 to 0.10

Percentage of beneficiaries who received shots in an
                                                                    372              0.03                    0.01 to 0.04
undetermined location

Percentage of beneficiaries whose treatment was not
                                                                    372              0.24                    0.19 to 0.28
monitored

Percentage of beneficiaries who were monitored, but
                                                                    312              0.27                    0.22 to 0.32
received inappropriate follow-up

Percentage of beneficiaries who received inappropriate
                                                                    372              0.07                    0.05 to 0.10
repeat skin tests



Pairwise T - Tests for medically unnecessary services by type of service

                     Comparison                             Test Result                            P-value
                                                                                     (Bonferroni threshold = 0.016667)

Allergy tests versus allergen immunotherapy                     -6.59                0.00 (significant at 95% confidence)

Allergy tests versus ancillary services                         -1.37                0.17 (not significant at 95% confidence)

Allergen immunotherapy versus ancillary services                 5.10                0.00 (significant at 95% confidence)




        OEI-09-00-00531      ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES                                    25
Δ   A P P E N D I X                 C            





OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR       MEDICARE BENEFICIARIES   26
A   P   P E N D       I X ~    C      





    OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES   27
Δ   A C K N O W L E D G M E N T S                                         




                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office, and Deborah Harvey, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Scott Hutchison, Project Leader
                  Pamela J. Minniear, Program Analyst

                  Camille Harper, Program Analyst

                  Cheryl Dotts, Program Assistant

                  Stephanie London, Program Specialist

                  Bambi Straw, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch



                  Technical Assistance

                  Rob Gibbons, Program Analyst

                  Scott Horning, Program Analyst

                  Linda Moscoe, Program Analyst

                  Barbara Tedesco, Mathematical Statistician


                  We would like to thank our medical review contractor and the
                  individual physicians who performed the review as well as the carrier
                  staff who participated in our interviews and assisted us in obtaining
                  contact information for the physicians whose claims were selected for
                  review.




OEI-09-00-00531   ALLERGEN IMMUNOTHERAPY   FOR   MEDICARE BENEFICIARIES              28
